No.

,3ln i!je
Supreme (£mxvt nf ilp

JSiaies

Cedric L. Daniels.,
Petitioner,
v.
DAVE DAVEY, Warden, and PEOPLE OF THE STATE OF CALIFORNIA,
Respondents.

On Petition for Writ Of Certiorari
To The United States Supreme Court

PETITION FOR WRIT OF CERTIORARI
Robert Joseph. Beles
Paul Gilruth McCarthy
1 Kaiser Plaza, Suite 2300
Oakland, California 94612-3642
Tel. No. (510) 836-0100
Fax No. (510) 832-3690

California Bar no. 41993
California Bar 139497

Counsel for Petitioner

Questions Presented for Review
Could a jurist of reason find that petitioner was denied his Sixth Amendment right to
confront and cross-examine witnesses and Fourteenth Amendment right to due process
when the trial court:
a. refused to admit impeachment evidence against the prosecution’s key witnesses?
b. admitted hearsay statements without any recognized exception?
Could a jurist of reason find that petitioner was denied his Fourteenth Amendment right
to due process when the trial court:
a. allowed the prosecution to impeach his expert witness, Scott Fraser, with
highly prejudicial and irrelevant evidence,
b. failed to properly instruct the jury on the use of co-conspirator statements
c. instructed the jury that Mixon and Walker were accomplices as a matter of law.
d. instructing the jury that it could consider how certain a witness claimed to be
of his or her identification in evaluating the witnesses’ identification of petitioner.
e. finding that petitioner’s juvenile adjudications constituted strikes for the
purpose of California’s Three Strikes Law, and/or
f. denying petitioner’s motion to strike his prior convictions and sentenced him
pursuant to California’s Three Strikes law?
Could a jurist of reason find that petitioner was denied his Fourteenth Amendment right
to due process when there was no substantial evidence to support the jury’s finding on
the great bodily injury enhancement?
List of all parties
Petitioner
Cedric L. Daniels.
Respondents
Dave DAVEY, Warden, and PEOPLE OF THE STATE OF CALIFORNIA.

1

Table of Contents and Table of Authorities
Table of Contents
section

page number

Questions Presented for Review.

i

List of all parties.

i

Table of Contents and Table of Authorities.

ii

Table of Contents

n

Table of Authorities

v

Citations of the Official and Unofficial Reports of the Opinions and Orders
Entered in the Case by Courts or administrative Agencies,
l
Basis for Jurisdiction in the Supreme Court.

l

Constitutional Provisions and Statutes Involved.

l

1. United States Constitution

1

2. Federal statutes

1

3. Federal court rules

1

4. State statutes

2

Statement of the Case.

2

1. Specification of Stage in the Proceedings in Which the Federal
Questions Sought to Be Reviewed Were Raised, the Manner of Raising
Them, and the Way in Which They Were Passed On....................................

2

2. Statement of Facts

2

Argument.

3

ii

1. Standard for granting a certificate of appealability.

3

2. A jurist of reason find that petitioner was denied his Sixth Amendment
right to confront and cross-examine witnesses and Fourteenth Amendment
right to due process when the trial court took the following actions: ....

3

a. Refusing to admit impeachment evidence against the
prosecution’s key witnesses.................................................................

3

i. Werner.

3

ii. Moushi

4

b. Admitting hearsay statements without any recognized
exception...............................................................................

4

3. A jurist of reason could find that petitioner was denied his Fourteenth
Amendment right to due process when the trial court took the following
actions:..............................................................................................................

5

a. Allowing the prosecution to impeach his expert witness with
highly prejudicial and irrelevant evidence.........................................

5

b. Failing to properly instruct the jury concerning co-conspirator
statements.............................................................................................

5

c. Instructing the jury that Mixon and Walker were accomplices as
a matter of law......................................................................................

5

d. Instructing that the jury could consider, in evaluating an
eyewitness identification, how certain the eyewitness said he or she
was..........................................................................................................

6

e. Finding that petitioner’s juvenile adjudications constituted
strikes for the purpose of California’s Three Strikes Law................

6

f. Denying petitioner’s motion to strike his prior convictions and
sentencing him under to California’s Three Strikes law..................

7

4. A jurist of reason could find that petitioner was denied his Fourteenth
Amendment right to due process when there was no substantial evidence
to support the jury’s finding on the great bodily injury enhancement............
iii

8

Conclusion.

9

Appendix.

A-10

1. Opinion sought to be reviewed.

A-10

2. Prior opinions and orders

A-12

a. District Court’s order adopting and supplementing magistrate’s
report and recommendations............................................................... A-12
b. Magistrate’s report and recommendations

A-15

c. California Supreme Court order.

A-37

d. Court of Appeal opinion.

A-38

3. State statutes.

A-84

4. State jury instructions

A-85

IV

Table of Authorities
cases

page number

Bains v. Cambra, 204 F.3d 964 (9th Cir. 2000)

4

Carella v. California, 491 U.S. 263 (1989)

5

Davis v. Alaska, 415 U.S. 308 (1974)

3,4

Delaware v. Van Arsdall, 475 U.S. 673 (1986)

4

Francis v. Franklin, 471 U.S. 307 (1985)

5

Graham v. Florida, 130 S. Ct. 2011 (2010)

7

Hicks v. Oklahoma, 447 U.S. 343 (1980)

7

In re Manzy W., 14 Cal.4th 1199 (1997)

6

Jackson v. Virginia, 443 U.S. 307 (1970)

8

Miller-El v. Cockrell, 537 U.S. 322 (2003)

3

Neil v. Biggers, 409 U.S. 188 (1972)

6

Payne v. Tennessee, 501 U.S. 808 (1991)

5

People v. Davis (1984) 161 Cal.App.3d 796

8

People v. Escobar, 3 Cal.4th 740 (1992)

8

People v. Haykel (2002) 96 Cal.App.4th 146

7

People v. Lee, 111 Cal.App.4th 1310 (2003)

6

People v. Patterson (2017) 2 Cal.5th 885

.. 8

People v. Rodriguez (2016) 1 Cal.5th 676

8

People v. Romero, 13 Cal.4th 497 (1996)

7,8

v

cases

page number

Perry v. New Hampshire, 565 U.S. 228,132 S.Ct. 716 (2012)

6

Roper v. Simmons. 543 U.S. 551 (2005)

7

Sandstrom v. Montana, 442 U.S. 510 (1979)

5

Slack v. McDaniel, 529 U.S. 473, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000)

3

Sullivan v. Louisiana, 508 U.S. 275 (1993)

8

United States v. Carmack, 329 U.S. 230 (1946)

8

United States v. Wade, 388 U.S. 218 (1967)

6

Washington v. Texas, 388 U.S. 14 (1967.)

4

Yates v. Evatt, 500 U.S. 391 (1991)

5

statutes

page number

28 U.S.C. section 1254(1)

1

California Penal Code section 187

2

Evidence Code section 1223

4

Penal Code section 211

2

Penal Code section 245

7

Penal Code section 245(a)(1)

6

Penal Code section 245(a)(2)..

2

Penal Code section 667(d)(1)

6

Penal Code section 12022.53(b)

2

Penal Code section 12022.7(f)

8,9
vi

statutes

page number

Supreme Court Rule 13

1,2

United States Constitution, Fifth Amendment.

1,4

United States Constitution, Fourteenth Amendment.
United States Constitution, Sixth Amendment

jury instructions

1, 3-5, 7, 8
1, 3, 4, 8
page number

CALCRIM 418

5

vii

Citations of the Official and Unofficial Reports
of the Opinions and Orders Entered in the
Case by Courts or Administrative Agencies.
None of the orders and opinions were published. They are attached as an appendix.

Basis for Jurisdiction in the Supreme Court.
1. Date of entry of order sought to be reviewed: February 12, 2020.
2. Date of any order respecting rehearing: none.
3. Statutory provision believed to confer on this Court jurisdiction to review on
a writ of certiorari the judgment or order in question: 28 U.S.C. section 1254(1).
Constitutional Provisions and Statutes Involved.
1. United States Constitution
Fifth Amendment: No person shall be . . . deprived of . .. liberty . . . without due
process of law. .. .
Sixth Amendment: In all criminal prosecutions, the accused shall enjoy the right to
a . .. trial, by .. . jury ... to be confronted with the witnesses against him . .., and to
have the Assistance of Counsel for his defence.
Fourteenth Amendment. Section. 1
No State shall. . . deprive any person of
... liberty . .. without due process of law....
2. Federal statutes.
28 U.S.C. section 1254(1): Cases in the courts of appeals may be reviewed by the
Supreme Court... (1) By writ of certiorari granted upon the petition of any party to any
civil or criminal case, before or after rendition of judgment or decree ....
3. Federal court rules.
Supreme Court Rule 13. Review on Certiorari: Time for Petitioning: ... a
petition for a writ of certiorari to review a judgment in any case, civil or criminal,
entered by ... a United States court of appeals (including the United States Court of
Appeals for the Armed Forces) is timely when it is filed with the Clerk of this Court
within 90 days after entry of the judgment.... (The 90 day deadline in Rule 13 was
1

extended to 150 days by order of this Court dated March 19, 2020.)
4. State statutes.
Relevant state statutes are attached as an appendix at A-84 to A-85.

Statement of the Case
1. Specification of Stage in the Proceedings
in Which the Federal Questions Sought to
Be Reviewed Were Raised, the Manner of
Raising Them, and the Way in Which They
Were Passed On.
On December 21, 2011, petitioner was convicted of two counts of first degree robbery,
Penal Code section 211, and one count of assault with a firearm, Penal Code section
245(a)(2), and a firearms use enhancement under Penal Code section 12022.53(b) was found
true.
On July 9, 2014, following a direct appeal, the California Supreme Court denied
petitioner’s Petition for Review.
On December 6, 2016, the United States District Court for the Northern District of
California denied petitioner’s petition for writ of habeas corpus and denied a certificate
of appealability.
On July 18, 2017, the United States Court of Appeals for the Ninth Circuit denied
petitioner’s application for a certificate of appealability.
This petition for writ of certiorari is filed within 150 days of the Ninth Circuit’s denial
of a certificate of appealability and is timely under Supreme Court Rule 13, as extended
by this court’s March 19, 2020 order.
2. Statement of Facts.
Petitioner adopts the statement of facts in the unpublished district court opinion,
(Appendix pp. A-7 to A-10.)

2

Argument
1. Standard for granting a
certificate of appealability.
In Slack v. McDaniel, 529 U.S. 473,120 S. Ct. 1595,146 L. Ed. 2d 542 (2000), this court
held that a petitioner can must make a “substantial showing of the denial of a
constitutional right” with respect to each issue sought to be appealed, simply by showing
“. . . that the issues are debatable among jurists of reason; that a court
could resolve the issues [in a different manner]; or that the questions are
adequate to deserve encouragement to proceed further.”
In Miller-El v. Cockrell, 537 U.S. 322 at 336-337 (2003), this Court held:
“We do not require petitioner to prove, before the issuance of a COA, that
some jurists would grant the petition for habeas corpus. Indeed, a claim
can be debatable even though every jurist of reason might agree, after the
COA has been granted and the case has received full consideration, that
petitioner will not prevail.”
Miller-El v. Cockrell, 537 U.S. at 337-338.
2. A jurist of reason find that petitioner was denied
his Sixth Amendment right to confront and cross-examine
witnesses and Fourteenth Amendment right to due process
when the trial court took the following actions:
a. Refusing to admit impeachment evidence
against the prosecution’s key witnesses.
i. Werner.
Petitioner sought to impeach Werner with her prior arrests in Los Angeles and Las
Vegas for prostitution.
The confrontation clause guarantees a criminal defendant the right to explore a
witness’s bias on cross-examination. See Davis v. Alaska, 415 U.S. 308, 316 (1974). “[A]
criminal defendant states a violation of the Confrontation Clause by showing that he
was prohibited from engaging in otherwise appropriate cross-examination designed to
show a prototypical form of bias on the part of the witness, and thereby ‘to expose to the
jury the facts from which jurors ... could appropriately draw inferences relating to the
3

reliability of the witness.’” Delaware v. Van Arsdall, 475 U.S. 673, 680 (1986).
The right to present a defense is a fundamental element of due process of law under the
Sixth and Fourteenth Amendments. Washington v. Texas, 388 U.S. 14, 19 (1967.)
The Fifth, Sixth, and Fourteenth Amendments provide a right to present relevant
exculpatory evidence to the jury. This necessarily includes evidence which calls into
doubt the reliability of the evidence on which the state is relying. Davis v. Alaska, supra,
415 U.S. 308.
ii. Moushi.
Moushi testified from federal custody, as he was under an immigration hold. Trial
counsel sought to impeach Moushi with this custody status, a firearm conviction, and
the fact that he had an outstanding marijuana case. The trial court barred such
impeachment. Such impeachment violated petitioner’s constitutional rights for the same
reasons as the denial of impeachment for Werner.
b. Admitting hearsay statements
without any recognized exception.
Werner testified that she overheard two conversations in which petitioner and Walker,
planned a robbery. However, Werner could not attribute any statements about the
robbery to petitioner. Werner also testified about a second conversation wherein
petitioner and Walker discussed their pleasure regarding the proceeds of the robbery.
However, again, Werner could not attribute any discussion to petitioner himself. The
court admitted the testimony under the co-conspirator exception to the hearsay rule.
Petitioner challenged this ruling on Sixth Amendment grounds in District Court.
Erroneous admission of hearsay statements under California’s co-conspirator exception
violated the Sixth Amendment as the statements were not made during the course of
and in the furtherance of the alleged conspiracy. Bains v. Cambra, 204 F.3d 964, 974
(9th Cir. 2000). Since there was no evidence Walker was involved in the robbery, and
since some statements were allegedly made after any conspiracy to commit a robbery
was over, the statements were not made in the course of a conspiracy. Evidence Code
section 1223.

4

3. A jurist of reason could find that petitioner was
denied his Fourteenth Amendment right to due process
when the trial court took the following actions:
a. Allowing the prosecution to impeach his expert
witness with highly prejudicial and irrelevant evidence.
The prosecution was allowed to impeach petitioner’s eyewitness identification expert
with a prior finding by a trial court that the witness had made material
misrepresentations to the court. The witness, not being a party to the prior action, had
no opportunity to have this finding corrected on review.
The admission of this prior incident was so unduly prejudicial to petitioner as to render
the trial fundamentally unfair. Payne v. Tennessee, 501 U.S. 808,825 (1991). Reasonable
jurists could disagree that this was merely an issue of state law, as the district court
found.
b. Failing to properly instruct the jury
concerning co-conspirator statements.
Jury instructions which relieve the government of its burden of proving guilt beyond a
reasonable doubt violate a defendant’s due process rights. See Francis v. Franklin, 471
U.S. 307 (1985); Sandstrom v. Montana, 442 U.S. 510 (1979). Instructions containing
presumptions which otherwise reduce the prosecution’s burden of proof violate
Fourteenth Amendment due process. Yates v. Evatt, 500 U.S. 391 (1991); Carella v.
California, 491 U.S. 263 (1989); Francis v. Franklin, supra, 471 U.S. 307.
The trial court failed to instruct the jury that it couldn’t consider a hearsay statement
unless the prosecution has proved the existence of a conspiracy, that the parties were
members of a conspiracy, that the statement furthered the goals of the conspiracy and
that petitioner was a participant in the conspiracy. CALCRIM 418.
c. Instructing the jury that Mixon and
Walker were accomplices as a matter of law.
The trial court instructed the jury that “If the crimes of robbery or assault were
committed, then Lovelle Mixon and Johnnie Walker, also known as Bam, were
accomplices to those crimes.” (8, RT 1812.) This instruction directed a verdict that the
two witnesses were accomplices and, by implication, that petitioner was the perpetrator
of the alleged crimes since the other two were only accomplices. There was evidence that
Walker committed the crime instead of petitioner. This instruction violated due process
as specified in the discussion in b above.
5

d. Instructing that the jury could consider, in
evaluating an eyewitness identification, how certain
the eyewitness said he or she was.
Moushi testified that he was 100% certain that petitioner was the second suspect that
held him at gun point during the robbery. (6, RT 1223.) Hana testified she “never
forgets a face.” (3, RT 574, 575, 583.) By instructing the jury that they could consider
how certain the eyewitness claimed to be, the court allowed these witnesses to vouch for
the accuracy of their identifications simply by claiming that they were certain.
This court has previously noted the issues created by the possibility of mistaken
eyewitness identification. See United States v. Wade, 388 U.S. 218,228-229 (1967); Perry
u. New Hampshire, 565 U.S. 228, 132 S.Ct. 716, 738 (2012) (Sotomayor, J., dissenting).
Although Neil v. Biggers, 409 U.S. 188, 199-200 (1972) held that in evaluating
eyewitness testimony, the jury could consider “the level of certainty demonstrated by
the witness at the confrontation”, in later years, scientific research has disproved the
notion that witness certainty is a meaningful indicator of reliability. See Perry v. New
Hampshire, supra, 132 S.Ct. at 739 (Sotomayor, J., dissenting, research shows
“confidence is a poor gauge of accuracy”). Moreover, it is illogical that a witness could
increase the weight to be given to his or her testimony by simply reciting a few magic
words.
e. Finding that petitioner’s juvenile adjudications constituted
strikes for the purpose of California’s Three Strikes Law.
The trial court imposed 25 years-to-life sentences on both robbery counts pursuant to
California’s Three Strikes Law. (9, RT 1840,1844.) Both of the alleged prior strikes were
juvenile offenses, the latter of which was a Penal Code section 245(a)(1) disposition.
Petitioner had allegedly punched another ward in juvenile custody who had provoked
petitioner by insulting him with a racial slur Petitioner’s requests for help from the
juvenile authorities before the incident were ignored. (3, CT 772, 773.)
The prosecution relied on a partial transcript of the evidentiary hearing and a copy of
the dispositional hearing to prove the prior finding. The sparse evidence provided by the
disposition hearing indicates that petitioner was to be detained in juvenile hall until his
18th birthday and that his wardship and probation would be dismissed on his 18th
birthday. (3, CT 693.)
California’s Three Strikes Law requires that a qualifying prior conviction be pleaded and
proved beyond a reasonable doubt. People v. Lee, 111 Cal.App.4th 1310, 1315 (2003).
Penal Code section 667(d)(1) holds that the determination of whether the conviction
qualifies as a strike “shall be made upon the date of that prior conviction.” In re Manzy
6

W., 14 Cal.4th 1199 (1997) held that a juvenile court must exercise its discretion to
determine whether a minor is to be treated as a misdemeanant where it has been found
true that he committed a “wobbler” offense.
The District Court found that petitioner’s prior convictions were properly strikes simply
because they were both felonies. (Dkt. No. 41 at p. 12.) However, not all felony violations
of Penal Code section 245 qualify as “violent” offenses under California’s Three Strikes
law. People v. Haykel (2002) 96 Cal.App.4th 146. Accordingly, where the District Court
based its finding that petitioner’s juvenile offense was a strike only on the fact that it
was a felony, reasonable jurists could disagree with the conclusion that there was
sufficient evidence to support the finding that this was a strike.
f. Denying petitioner’s motion to strike his prior convictions
and sentencing him under to California’s Three Strikes law.
In the District Court, petitioner argued that he was entitled to habeas relief because the
trial court had abused its discretion in denying petitioner’s motion to dismiss his prior
strikes pursuant to People v. Romero, 13 Cal.4th 497 (1996). Petitioner argued that the
trial court’s abuse of discretion violated his Fourteenth Amendment right to Due
Process under Hicks v. Oklahoma, 447 U.S. 343, 346-347 (1980). The magistrate’s
finding, adopted by the District Court, was that it was reasonable for the court to impose
a three strikes sentence given petitioner’s “extensive criminal history.” (Dkt. No. 41 at
p. 14.)
Under Romero, a trial court must review a defendant’s background, the nature of his
present offense and the objectives of rational sentencing and then decide whether it
would be in the “interest of justice” to strike the prior conviction. Romero, supra, 13
Cal.4th at p. 632. It is not sufficient to consider the defendant’s criminal history alone.
In this case, there was significant cause to find that it was in the “interest ofjustice” not
to sentence petitioner to an indeterminate life term in prison.
First, petitioner was only 25 years old at the time of his conviction, strongly suggesting
that rehabilitation was possible without an indeterminate sentence. The District Court
did not address this factor.
Second, petitioner’s only strikeable offenses were juvenile dispositions -r not criminal
convictions. The District Court, therefore, was incorrect to rely on that factor alone in
finding that the state court did not abuse its discretion. See Graham v. Florida, 130 S. Ct.
2011 (2010), Roper v. Simmons. 543 U.S. 551, 569-570 (2005) ((1) juveniles are less
mature and responsible, characteristics which produce “impetuous and ill-considered
actions and decisions”; (2) juveniles are more susceptible to “negative influences and
7

outside pressures”; and (3) a juvenile’s character is not as well developed as that of an
adult.)
As the state court did not actually consider the proper factors under Romero and relied
substantially on two juvenile adjudications to find that petitioner should be sentenced
to a period of 25 years-to-life, it acted arbitrarily. Under California law, where a trial
court’s exercise or discretion rests on an error of law, its decision is an abuse of
discretion. People v. Patterson (2017) 2 Cal.5th 885, 894. The trial court must exercise
its discretion to accomplish the purpose of the law granting such discretion. People v.
Rodriguez (2016) 1 Cal.5th 676,685. And the court exercising discretion must know and
consider all material facts and evidence together with legal principles essential to an
informed, intelligent, and just decision. People v. Davis (1984) 161 Cal.App.3d 796,801.
These rules are is similar to the federal rule that an arbitrary decision is one made
“without adequate defining principles.” United States v. Carmack, 329 U.S. 230,244, fn.
14 (1946). A reasonable jurist could find that where the state court failed to apply the
relevant law, its decision was not guided by any defining principle, the decision was
arbitrary and violated due process.
4. A jurist of reason could find that petitioner was denied
his Fourteenth Amendment right to due process when
there was no substantial evidence to support the jury’s
finding on the great bodily injury enhancement.
To be supported by sufficient evidence, the record must contains substantial evidence
of guilt from which a trier of fact could reasonably find the defendant guilty of the
charged offense beyond a reasonable doubt. Jackson v. Virginia, 443 U.S. 307 (1970).
The jury’s true finding on the great bodily injury enhancement, on less than sufficient
evidence, violates the Fifth and Sixth, and Fourteenth Amendment guarantees of due
process and a jury trial. Sullivan v. Louisiana, 508 U.S. 275, 277-278 (1993).
Penal Code section 12022.7(f) defines “great bodily injury” as “a significant or
substantial physical injury.” To qualify as great bodily injury, it is not necessary that the
injury be permanent, protracted or prolonged, as opposed to transitory. However, great
bodily injury does not include injury which amounts to minor, trivial, insignificant, or
even moderate harm. People v. Escobar, 3 Cal.4th 740, 746, 748-750 (1992).
The District Court adopted the magistrate’s findingthat the jury had sufficient evidence
to find that petitioner, rather than Mixon, personally caused great bodily injury to
Moushi. (Dkt. No. 41 at p. 12.) The court relied on testimony that Moushi had bled from
his head during the attack to show “great bodily injury’’.However, the court could not
point to any testimony that petitioner, rather than Mixon, caused that bleeding. Hana
testified that she was not sure if the man she identified as petitioner hit her son. (2 RT
8

466.) Moushi also admitted that he wasn't even sure if petitioner had hit him. (5 RT 900,
901.)
On the issue of whether the injury qualified as “great bodily injury”, Moushi testified
that he was hit with the butt of a gun resulting in some facial bleeding. Moushi did not
testify as to any loss of consciousness, broken bones or persistent symptoms resulting
from the blow to the head. There was no description of Moushi’s injuries by any witness,
no medical records or other evidence to show that Moushi suffered great bodily injury
aside from the bleeding, and no testimony from Moushi himself that described “great
bodily injury” as defined by section 12022.7(f). The only evidence presented with respect
to the issue of great bodily injury were photos of Moushi’s injuries purporting to show
his face following the assault. These photos only show that the injury bled.
A reasonable juror could find that this was insufficient evidence either that petitioner
caused Moushi’s or that the injury was qualifying.

Conclusion
For these reasons, this court should accept certiorari and remand to the Ninth Circuit
with instructions to grant a certificate of appealability.
Dated: Oakland, California, Thursday, July 9, 2020.

Robert J. Beles
Attorney for Petitioner

9

